         U.S. ENVIRONMENTAL PROTECTION AGENCY
         OFFICE OF INSPECTOR GENERAL



                                        Catalyst for Improving the Environment


Site Inspection Report



       American Recovery and
       Reinvestment Act Site Inspection
       of the Clean Water State
       Revolving Fund Projects at the
       City of Long Beach, California
       Report No. 11-R-0082

       February 1, 2011
Report Contributors:                              Glen Chabotar
                                                  Kevin Collins
                                                  Lela Wong
                                                  Mike Owen




Abbreviations

DBA           Davis-Bacon Act
SWRCB         State Water Resources Control Board


Cover photo: Colorado Lagoon Restoration project under construction at the
             City of Long Beach, California. (EPA OIG photo)
                       U.S. Environmental Protection Agency 	                                               11-R-0082
                                                                                                      February 1, 2011
                       Office of Inspector General


                       At a Glance
                                                                            Catalyst for Improving the Environment

Why We Did This Review
                                   American Recovery and Reinvestment Act
The U.S. Environmental             Site Inspection of the Clean Water State
Protection Agency Office of
Inspector General conducts
                                   Revolving Fund Projects at the City of
site inspections of American       Long Beach, California
Recovery and Reinvestment
Act of 2009 clean water and         What We Found
drinking water projects. We
selected the projects at the       We conducted unannounced site inspections of four projects at the City of Long
City of Long Beach,                Beach, California, in May 2010. We toured the four projects. For the largest
California, for review.            project, the Colorado Lagoon Restoration project, we also conducted interviews of
                                   city representatives and contractor personnel, and reviewed documentation related
Background                         to Recovery Act requirements.

The city received $5,813,786       Our site inspections identified a wage compliance issue that merits attention from
in Recovery Act funds from         and action by the city, the California State Water Resources Control Board, and
the California State Water         the U.S. Environmental Protection Agency.
Resources Control Board
under the Clean Water State         What We Recommend
Revolving Fund Program.
This amount comprised              We recommend that the U.S. Environmental Protection Agency Regional
$4,319,107 for the Colorado        Administrator, Region 9, require the California State Water Resources Control
Lagoon Restoration project,        Board to verify that the city is implementing controls to ensure compliance with
$539,634 for the Los Angeles       the Davis-Bacon Act and California state prevailing wage requirements.
River Vortex Separation
System, $403,200 for the Los
Angeles River Trash Nets, and
$551,845 for the Los Angeles
River Trash Separation
Device. The Recovery Act
funds were for principal
forgiveness.

For further information, contact
our Office of Congressional,
Public Affairs and Management
at (202) 566-2391.

The full report is at:
www.epa.gov/oig/reports/2011/
20110201-11-R-0082.pdf
                          UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                       WASHINGTON, D.C. 20460


                                                                                  THE INSPECTOR GENERAL




                                         February 1, 2011

MEMORANDUM

SUBJECT:	 American Recovery and Reinvestment Act Site Inspection of the
          Clean Water State Revolving Fund Projects at the
          City of Long Beach, California
          Report No. 11-R-0082


FROM:          Arthur A. Elkins, Jr.
               Inspector General

TO:	           Jared Blumenfeld
               Regional Administrator, Region 9


This is our report on the subject site visit conducted by the Office of Inspector General of the
U.S. Environmental Protection Agency. The report summarizes the results of our inspections of
the four projects located in the City of Long Beach, California, funded under the American
Recovery and Reinvestment Act of 2009.

We performed the site inspections as part of our responsibility under the Recovery Act. The
purpose of our site inspections was to determine the city’s compliance with selected
requirements of the Recovery Act pertaining to the Clean Water State Revolving Fund Program.
The city received a total of $5,813,786 in Recovery Act funds.

The estimated cost of this report, calculated by multiplying the project’s staff days by the
applicable daily full cost billing rate in effect at the time, is $91,326.

Action Required

In accordance with EPA Manual 2750, you are required to provide a written response to this
report within 90 calendar days. You should include a corrective action plan for agreed-upon
actions, including milestone dates. Your response will be posted on the Office of Inspector
General’s public website, along with our memorandum commenting on your response. Your
response should be provided as an Adobe PDF file that complies with the accessibility
requirements of section 508 of the Rehabilitation Act of 1973, as amended. The final response
should not contain data that you do not want to be released to the public; if your response
contains such data, you should identify the data for redaction or removal. We have no objection
to the further release of this report to the public. This report will be available at
http://www.epa.gov/oig.

If you or your staff have any questions regarding this report, please contact Melissa Heist,
Assistant Inspector General for Audit, at (202) 566-0899 or heist.melissa@epa.gov; or Robert
Adachi, Product Line Director, at (415) 947-4537 or adachi.robert@epa.gov.
Purpose

            The purpose of our unannounced site inspections was to determine the
            compliance of the City of Long Beach, California, with selected requirements of
            the American Recovery and Reinvestment Act of 2009 that pertain to the Clean
            Water State Revolving Fund Program.

Background

            U.S. Environmental Protection Agency Region 9 awarded grant 2W-06000209 to
            the California State Water Resources Control Board (SWRCB) on May 20, 2009.
            The total amount awarded was $280,285,800. The purpose of the grant was to
            provide funding under the Recovery Act to the SWRCB to capitalize its revolving
            loan fund for the financing and construction of wastewater treatment facilities and
            associated infrastructure, green infrastructure, nonpoint source projects, estuary
            projects, and program administration.

            The City of Long Beach received four loans totaling $5,813,786 from SWRCB
            under the grant for the following projects:

               	 The Colorado Lagoon Restoration project received $4,319,107. The
                   project consists of installing low flow diversion structures and trash
                   separation devices, building a vegetated bioswale along the western arm of
                   the lagoon, and cleaning and modifying the existing culvert to improve the
                   tidal flushing.

               	 The Los Angeles River Vortex Separation System project received
                   $539,634. The project consists of installing a vortex separation system on
                   a large storm drain leading to a pump station on the Los Angeles River to
                   fully capture trash, debris, and sediment.

               	 The Los Angeles River Trash Nets project received $403,200. The project
                   consists of constructing a trash net system to capture trash and debris
                   before they are pumped into the Los Angeles River.

               	 The Los Angeles River Trash Separation Device project received
                   $551,845. The project consists of installing a trash separation device in the
                   forebay of a city pump station to fully capture trash and debris before they
                   are pumped into the Los Angeles River.

            SWRCB used Recovery Act funds to offset 100 percent of the city’s indebtedness
            through principal forgiveness on all four loans.




11-R-0082                                                                                    1
Scope and Methodology

            Due to the time-critical nature of the Recovery Act requirements, we did not
            perform the site inspections in accordance with generally accepted government
            auditing standards. Specifically, we did not perform certain steps that would allow
            us to obtain information to assess the city’s internal controls and any previously
            reported audit concerns. As a result, we do not express an opinion on the
            adequacy of the city’s internal controls or compliance with all federal, state, or
            local requirements.

            We conducted the unannounced site inspections on May 4–5, 2010. During our
            inspections, we performed the following steps:

               1. 	 Toured the four projects.
               2. 	 Interviewed city and contractor personnel for the Colorado Lagoon
                    Restoration project.
               3. 	 Reviewed documentation maintained by the city and its contractors for the
                    Colorado Lagoon Restoration project on the following matters:
                        a. 	 Buy American requirements under section 1605 of the Recovery
                             Act
                        b. 	 Wage rate requirements under section 1606 of the Recovery Act
                             that are pursuant to the Davis-Bacon Act (DBA)
                        c. 	 Reporting requirements under section 1512 of the Recovery Act
               4. 	 Reviewed documentation maintained by the city on the procurement of the
                    contracts for the four projects.

            We did not review the remaining three projects for compliance with Buy
            American, DBA, and Recovery Act reporting requirements. Two of the projects
            were inactive at the time of the site inspections. The third project was active but
            only had two or three employees on-site, thus limiting the work we could have
            accomplished.

Results of Site Inspection

            During our site inspections, we found that the contractor did not fully comply
            with DBA and California’s prevailing wage requirements. We summarize the
            specific inspection results below.

            Davis-Bacon Act Compliance

            Our review of DBA compliance at the Colorado Lagoon Restoration project
            found that employees were not paid the minimum required DBA or state
            prevailing rates. Section 1606 of the Recovery Act requires all laborers and
            mechanics employed on projects that are funded in whole or in part by the
            Recovery Act be paid DBA rates. DBA rates are rates not less than those
            prevailing on projects of a character similar in the locality as determined by the


11-R-0082                                                                                         2
            Secretary of Labor in accordance with United States Code, title 40, chapter 31,
            subchapter IV. The loan agreement between SWRCB and the city requires
            compliance with the DBA rates or the prevailing rates established under the
            California Labor Code, whichever is higher.

            We tested payroll data for one pay period. The pay period included 18 employees.
            Three of the 18 employees were either clerical or management; such positions are
            not subject to DBA or state prevailing wage requirements. Of the remaining 15
            employees included in the test, 9 were paid below the minimum state prevailing
            rates, which are higher than the DBA rates. One employee was also paid below
            the DBA rate. These employees were underpaid $0.07 to $1.27 per hour. The total
            amount underpaid for the pay period was $84.96.

            We brought this issue to the contractor’s attention. The contractor concurred with
            the finding and stated that when the job started, the contractor was not notified of
            the additional fringe benefit requirement because the Colorado Lagoon
            Restoration project is a public works project. The contractor informed us on
            September 2, 2010, that it had made the corrections to comply with the wage
            requirements going forward. The contractor will review and adjust prior payments
            retroactively to the start of the project. The noncompliance may have affected 26
            pay periods starting with the week ending March 7, 2010, until September 2,
            2010, when the contractor advised us of the correction. Although the estimated
            total underpaid amount of approximately $2,200 is not substantial, we believe the
            noncompliance is significant based on the number of occurrences and should be
            brought to the attention of the U.S. Environmental Protection Agency, SWRCB,
            and the city for consideration in future monitoring activities.

            The contract also contains the following provision: “Contractor shall forfeit, as a
            penalty to the City, Fifty Dollars ($50) for each laborer, worker or mechanic
            employed for each calendar day, or portion thereof, that such laborer, worker or
            mechanic is paid less than the prevailing wage rates for any work done by
            Contractor, or any subcontractor, under this Contract.” Assuming the compliance
            situation applied to all 26 weeks, the total penalty would be approximately
            $58,500.

            Buy American Requirements

            We did not identify any Buy American issues of concern. The Buy American
            requirement was included in the contract bid documents and loan agreements. The
            contractor certified that it had read the requirement and is able to comply.
            According to the contractor, the requirement was communicated to all suppliers.
            City officials also stated that purchase orders were required to be submitted to the
            city for review. During our site visit, we observed and traced two different types
            of pipe being used at the Colorado Lagoon Restoration project. No issue was
            noted.




11-R-0082                                                                                     3
            Recovery Act Reporting Requirements

            We did not identify any Recovery Act reporting issues of concern. We reviewed
            the loan agreement between SWRCB and the city and obtained an understanding
            of the expenditure payment process. A third-party field inspector monitors work
            at the construction site. According to city officials, the contractor creates a
            monthly invoice, and the field inspector reviews it. City project managers review
            and approve the invoice and accompanying supporting documentation before
            submitting to SWRCB for reimbursement. After city project managers receive
            payment from SWRCB, funds are released to the contractor within 30 days.

            We reviewed the job creation/retention report submitted by the city to SWRCB
            under Recovery Act section 1512 for the quarter ended March 31, 2010. Hours
            used in the job creation/retention calculations were properly supported.

            Contract Procurement

            We did not identify any issues of concern. All contracts were competitively bid
            and awarded to the lowest responsive bidder.

Recommendation

            We recommend that the U.S. Environmental Protection Agency Regional
            Administrator, Region 9:

                    1.	 Require SWRCB to verify that the City of Long Beach is
                        implementing controls to ensure compliance with DBA and state
                        prevailing wage requirements.

Agency, Recipient, and Subrecipient Comments
            We issued a discussion draft on December 21, 2010. Formal written comments
            were not requested. We held an exit conference on January 6, 2011, with the city,
            SWRCB, and region to obtain and discuss their comments.

            The discussion draft contained two recommendations. The city and Region 9 did
            not comment on recommendation 1 to require SWRCB to verify that the city is
            implementing controls to ensure compliance with DBA and state prevailing wage
            requirements. SWRCB representative stated that it will work with the city to
            ensure the city has proper controls in place for wage compliance.

            City representatives did not agree with recommendation 2 to advise the SWRCB
            and the city to consider imposing a penalty under the contract provision that provides a
            $50-a-day-per-worker penalty if any worker is paid less than the amount required. One
            city representative stated that the underpayment was not substantial and that the
            penalty was excessive and unnecessary since the contractor has already made the


11-R-0082                                                                                          4
            adjustments retroactively. He believed it was an honest mistake and the contractor
            corrected it as soon as it was brought to its attention. Assessing the penalty may
            hurt the city’s relationship with the contractor and could harm the city’s
            reputation, considering the amount of the penalty versus the amount of the error
            uncovered.

            Another city representative stated that the city has proper controls in place to
            ensure DBA and state wage compliance and that this is the first time the city had a
            labor compliance issue in 25 years. The city always employs a person who is
            dedicated to labor compliance. At the time the errors occurred, the city’s labor
            compliance employee was no longer working in that capacity, and the city was
            using temporary employees to perform the function. The city representative
            believed that the transition in personnel was the reason for the noncompliance.

            The SWRCB representative also believed that the penalty was not warranted and
            that it does not have the authority to enforce the penalty.

            Region 9’s representatives stated that EPA does not have the authority to mandate
            the penalty and that it would support dropping the penalty recommendation.

OIG Response
            We considered the city’s comments for not assessing the penalty acceptable. We
            have adjusted the report to eliminate that recommendation.




11-R-0082                                                                                   5
                                Status of Recommendations and
                                  Potential Monetary Benefits

                                                                                                                        POTENTIAL MONETARY
                                                  RECOMMENDATIONS                                                        BENEFITS (in $000s)

                                                                                                            Planned
    Rec.    Page                                                                                           Completion   Claimed    Agreed To
    No.      No.                        Subject                        Status1      Action Official           Date      Amount      Amount

     1        4    Require SWRCB to verify that the City of Long             O   Regional Administrator,
                   Beach is implementing controls to ensure                            Region 9
                   compliance with DBA and state prevailing wage
                   requirements.




1   O = recommendation is open with agreed-to corrective actions pending;

    C = recommendation is closed with all agreed-to actions completed;

    U = recommendation is undecided with resolution efforts in progress





11-R-0082                                                                                                                                 6
                                                                            Appendix A

                                    Distribution
Office of the Administrator
Regional Administrator, Region 9
Agency Followup Official (the CFO)
Agency Followup Coordinator
General Counsel
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for External Affairs and Environmental Education
Director, Grants and Interagency Agreements Management Division,
       Office of Administration and Resources Management
Audit Followup Coordinator, Region 9
Public Affairs Officer, Region 9
Mayor, City of Long Beach, California
Executive Director, California State Water Resources Control Board




11-R-0082                                                                           7
